         OFFICE OF INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Audit Report




       PeoplePlus Security Controls
       Need Improvement

       Report No. 2005-P-00019   



       July 28, 2005    

Report Contributors:	              Rudolph M. Brevard
                                   Corey Costango
                                   Warren Brooks
                                   William Coker




Abbreviations

EPA          Environmental Protection Agency
HR           Human Resources
IT           Information Technology
NACIC        National Agency Check with Inquiries and Credit
OARM         Office of Administration and Resources Management
OCFO         Office of the Chief Financial Officer
OFS          Office of Financial Services
OHR          Office of Human Resources
OIG          Office of Inspector General
PAR          Personnel action request
PPL          PeoplePlus
TOPOs        Task Order Project Officers
                                                                                                      2005-P-00019
                                                                                                       July 28, 2005
                        U.S. Environmental Protection Agency
                        Office of Inspector General


                        At a Glance

                                                                          Catalyst for Improving the Environment


Why We Did This Review            PeoplePlus Security Controls Need Improvement

Our objectives were to             What We Found
determine whether: (1) the
Environmental Protection          Our review identified three significant issues in the security administration of
Agency (EPA) adequately           PeoplePlus (PPL). First, the Agency had not followed prescribed procedures for
configured PeoplePlus’            managing user access privileges, monitoring changes in employee responsibilities,
application security and          and processing system access requests. Second, EPA did not verify or conduct the
technical infrastructure to       required National Agency Check with Inquiries and Credit background screenings
protect the confidentiality,      for 45 percent (10 of 22) of contractor personnel with PPL access. Third, EPA
integrity, and availability of    implemented PPL without adequately implementing security controls for two key
system data; and (2)              processes. Specifically, OCFO had not properly secured default user IDs and did
implemented controls were         not adequately separate incompatible duties performed by the Security
working as intended.              Administrator.

Background
                                   What We Recommend
PeoplePlus is the EPA’s new
integrated human resources
                                  We recommend the Directors of EPA’s Office of Financial Services (OFS) and
(HR), benefits, payroll, and
                                  Office of Human Resources (OHR) take 13 actions to improve PPL security
time and labor system that is
                                  controls. These recommendations address areas where EPA could improve user
managed jointly by the Office
                                  access management and contractor background screening procedures. These
of the Chief Financial Officer
                                  recommendations include: (1) reinforcing the requirements to follow prescribed
(OCFO) and the Office of
                                  policies and procedures; (2) providing a training program to increase awareness
Administration and Resources
                                  and ability to perform security duties; (3) evaluating the need for system
Management (OARM). Both
                                  development contractors to have access to the production environment; and
HR and payroll data are
                                  (4) establishing a milestone date to complete contractor background screening.
processed to comply with
                                  We recommend that EPA evaluate all default user IDs to secure them, and assign
Federal, State, and EPA
                                  Security Administrators’ responsibilities in a manner that provides adequate
reporting requirements.
                                  separation of incompatible duties. EPA concurred with all of our
For further information,          recommendations and provided a plan of action to address concerns.
contact our Office of
Congressional and Public
Liaison at (202) 566-2391.

To view the full report,
click on the following link:

www.epa.gov/oig/reports/2005/
20050728-2005-P-00019.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460



                                                                                       OFFICE OF 

                                                                                  INSPECTOR GENERAL


                                          July 28, 2005

MEMORANDUM

SUBJECT:               PeoplePlus Security Controls Need Improvement
                       Report No. 2005-P-00019

FROM:                  Rudolph M. Brevard, Acting Director /s/
                       Business Systems Audits

TO:                    Charles E. Johnson
                       Chief Financial Officer

                       Luis A. Luna
                       Assistant Administrator for
                       Administration and Resources Management

This is our final report on the PeoplePlus security controls audit conducted by the Office of
Inspector General (OIG) of the U.S. Environmental Protection Agency (EPA). This audit report
contains findings that describe problems the OIG has identified and corrective actions the OIG
recommends. This audit report represents the opinion of the OIG, and the findings in this audit
report do not necessarily represent the final EPA position. EPA managers, in accordance with
established EPA audit resolution procedures, will make final determinations on matters in this
audit report.

Action Required

The Action Officials do not have to provide a response to this report. The Agency’s response to
the draft report contained an adequate corrective action plan with milestone dates to implement
the plan. We have no objection to further release of this report to the public. For your
convenience, this report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact me at
(202) 566-0893.
                                  Table of Contents 

At a Glance


Chapters
   1	   Introduction ...........................................................................................................      1             


                Purpose ..........................................................................................................    1                 

                Background ....................................................................................................       1                 

                Scope and Methodology.................................................................................                2                 

                Results in Brief ...............................................................................................      2                 


   2	   Further Steps Needed to Improve User Account Management ........................                                              3             


                Managing Access Privileges ..........................................................................                 3                 

                Monitoring Changes in System Access ..........................................................                        4

                Processing Access Requests .........................................................................                  4                 

                Online Security Policy Enforcement and System Access Definitions Are 

                   Ineffective .................................................................................................      5             

                Recommendations .........................................................................................             5                     

                Agency Comments and OIG Evaluation.........................................................                           6


  3	    Improvements Needed in Contractor Background Screening Process ..........                                                     7         


                EPA Did Not Follow Contractor Background Screening Procedures .............                                           7

                Recommendations .........................................................................................             8                 

                Agency Comments and OIG Evaluation.........................................................                           8


  4	    Improvements Needed for Default User IDs and 

        Security Administrator Duties .............................................................................                   9         


                Default User IDs Not Secured ........................................................................                 9

                Security Administrator Performs Incompatible Duties ....................................                             10 

                Recommendations .........................................................................................            10                 

                Agency Comments and OIG Evaluation.........................................................                          11 




Appendices
   A    Agency Criteria .....................................................................................................        12     


   B    Agency Response to Draft Report.......................................................................                       13     


   C    Distribution ............................................................................................................    22     

                                 Chapter 1
                                  Introduction
Purpose
          Our objectives were to determine whether: (1) the Environmental Protection
          Agency (EPA) adequately configured PeoplePlus’ application security and
          technical infrastructure to protect the confidentiality, integrity, and availability of
          system data; and (2) implemented controls were working as intended.

Background
          PeoplePlus (PPL) is the EPA’s new integrated human resources (HR), benefits,
          payroll, and time and labor system that is managed jointly by the Office of the
          Chief Financial Officer (OCFO) and Office of Administration and Resources
          Management (OARM). The system processes the data to comply with Federal,
          State, and EPA reporting requirements.

          As both the HR and payroll system, PPL contains confidential personnel
          information, such as names, addresses, Social Security numbers, and employee
          IDs. In this regard, EPA classified PPL’s data sensitivity level as high for
          confidentiality, integrity, and availability because:

              •	 The Privacy Act requires protection of the personnel information in the
                 system;

              •	 Miscalculation of payroll and entitlements could occur due to inaccurate
                 or erroneously modified data; and

              •	 Unavailability of data would adversely affect the Agency’s ability to make
                 financial payments, address benefits issues, or meet internal reporting
                 requirements.

          EPA established policies to guide its employees and contractors on controlling
          and securing access to the PPL system, as well as the network and other Agency
          information resources. OCFO developed procedures for online access to the
          system. OCFO also developed the PPL Security Plan, which details the
          managerial, operational, and technical controls for securing PPL. Likewise, EPA
          created a network security policy that establishes controls to ensure a secure
          network infrastructure. The Agency’s Information Security Manual sets forth
          requirements for securing information resources in accordance with EPA and
          Federal policies. Appendix A contains a summary of key Agency policies.




                                             1

Scope and Methodology
           We conducted this audit from November 2004 to April 2005 at EPA Headquarters
           in Washington, DC. We interviewed Agency personnel and contractors
           responsible for processing HR and payroll transactions and securing the
           application. We reviewed Agency policies, procedures, reports, and forms used
           to grant users system access and enforce system security. We conducted system
           walkthroughs of user functionality and selected a judgmental sample of functional
           users within the Office of Financial Services (OFS) and the Office of Human
           Resources (OHR) to evaluate their system access. Functional users are EPA
           employees or contractors that have special access to PeoplePlus in order to
           process human resources, time keeping, or payroll transactions; or perform system
           security maintenance. This audit was conducted in accordance with Government
           Auditing Standards, issued by the Comptroller General of the United States.

Results in Brief
           Program offices had not followed prescribed procedures to limit employees’
           system access, monitor changes in employees’ system needs, process system
           access requests, or conduct background screenings on contractors. We identified
           the following additional weaknesses: (1) program offices did not develop
           procedures to carry out their assigned system responsibilities, and (2) personnel
           required additional training to perform their assigned duties. Without restricting
           user access to the minimal set of privileges necessary, users could circumvent the
           organizational security policy in order to expose the Agency to attacks or damage
           the information technology (IT) infrastructure.

           Furthermore, EPA implemented PPL without adequately implementing security
           controls for two key system maintenance processes. OCFO had not properly
           secured default user IDs shipped with the system. A user ID is a number or name,
           which is unique to a particular PeoplePlus user. Furthermore, OCFO had not
           separated incompatible duties performed by the Security Administrator. During
           system development, EPA did not conduct an analysis to: (1) determine which
           default accounts were necessary to operate the system, (2) develop a strategy to
           mitigate the risks associated with prepackaged default accounts, and (3) design
           controls to ensure one person could not authorize or approve system changes
           without detection. EPA places itself at greater risk because an employee could
           use the IDs or incompatible duties to bypass implemented controls without
           detection and undermine the integrity of the data processed through the system.

           We made 13 recommendations to improve PPL security controls. EPA concurred
           with all of our recommendations and provided a plan of action to address
           concerns. We included EPA’s complete response as Appendix B.




                                            2

                               Chapter 2
    Further Steps Needed to Improve User Account
                    Management
         EPA did not effectively manage PPL user system access. Specifically, OCFO and
         OARM had not followed prescribed procedures for managing user access
         privileges, monitoring changes in employee system access needs, or granting
         users access consistent with requests. This occurred because Agency personnel
         did not conduct required tasks, such as: (1) verifying employee access requests to
         assigned responsibilities, (2) reviewing user access needs on a quarterly basis,
         (3) monitoring the changes in employee duties, and (4) maintaining
         documentation to support access to the system. This led to excessive –
         unnecessary or incompatible – system access, which could allow users to
         circumvent implemented security controls and increases the likelihood that errors
         or wrongful acts go undetected.

Managing Access Privileges
         PPL functional users received more system access than necessary to perform their
         job responsibilities. Several employees had system access privileges that gave
         them the capability to perform unnecessary or incompatible functions. For
         example:

             •	 OCFO employees, whose access should have been limited to entering
                data, had the ability to approve data as well. Specifically, two OCFO
                employees within the Payroll Management section could calculate and
                confirm pay sheets in addition to the ability to review and approve these
                same payroll transactions. In addition, one of these employees had access
                that allowed that person to perform incompatible time-keeping and
                approving functions. With this access, the employee could record hours
                worked, and verify and approve data on employee time sheets. We also
                noted that approximately 44 other employees had access to these same
                incompatible time-keeping and approving functions. However, we did
                not verify to what extent these other employees were using this access.

             •	 OARM gave a user system access to critical HR functions, with the
                ability to input personnel action requests (PARs); although the employee
                only needed the ability to generate reports.

             •	 Several system development contractors have functional user roles (a
                specific set of rights and privileges) within the production environment.
                These roles provide the contractors with the ability to process general


                                          3

                 payroll transactions, update employee pay records, and review and
                 approve individual payroll transactions. The contractors also have the
                 ability to record and approve hours worked on employee time sheets,
                 process PAR transactions, and manage employee records.

Monitoring Changes in System Access
         EPA did not remove system access after users either transferred to other offices or
         were assigned different job responsibilities. These employees retained their
         previous system access privileges, although they did not need the access for their
         current duties. For instance:

            •	 OCFO had not requested the removal of full system access for a contractor
               recently assigned to other duties. Although the contractor needed elevated
               access during system validation, the office took no action to reduce the
               contractor’s access once EPA placed PPL into production.

            •	 The OCFO Payroll Supervisor, with access to key payroll processing
               functions, transferred to the Office of Research and Development in
               November 2004. However, neither office took action to ensure the
               employee’s system access was consistent with their duties; although
               Agency policy requires this analysis. In addition, OCFO had not updated
               system access privileges for the current Payroll Supervisor, who
               transferred from the Systems Planning and Integration Staff group.

Processing Access Requests
         EPA had not correctly processed user access request forms for 79 percent (11 of
         14) of the users in our sample. Although EPA granted functional users system
         access to key HR and payroll functions, we found Security Administrators did not
         maintain or process system access documentation in accordance with prescribed
         procedures. We selected a sample of 14 functional users to validate whether EPA
         processed access requests according to prescribed policies. As indicated in
         Table 1, EPA granted system access in accordance with prescribed policies
         21 percent of the time. For the remainder of the users, EPA granted system
         access either without adequately prepared (unavailable or unsigned)
         documentation or inconsistent with the requests.

         Table 1 - Analysis of PeoplePlus System Access Forms

          Access Granted:                          Number         Percent
            With Adequate Documentation              3               21
             Without Adequate Documentation            7             50
             Inconsistent with Requests                4             29
          Total                                       14            100




                                          4

Online Security Policy Enforcement and System Access Definitions
Are Ineffective
          EPA has not managed user accounts effectively because personnel did not follow
          existing security policies and system access user roles were not adequately
          developed.

          Although OCFO provided broad overarching guidance for securing the PPL
          system, program offices carry out these responsibilities inconsistently. As a
          result, personnel did not conduct required tasks such as: (1) verifying employee
          access requests to assigned responsibilities; (2) reviewing user access needs
          quarterly; (3) monitoring the changes in employee duties; and (4) maintaining
          documentation to support access to the system.

          EPA’s analysis of user access requirements to develop system access roles was
          inadequate. In many cases, we found EPA developed system access roles based
          on the employee duties in the separate HR and Payroll systems as opposed to the
          access needed for the new combined system. In addition, EPA developed generic
          system access roles to perform a series of related tasks and then gave employees
          this access regardless of whether they performed those duties.

          Inconsistent compliance with security guidance and inadequate user role
          development led to excessive user access privileges. Although EPA implemented
          procedures to monitor payroll processing, an employee with excessive privileges
          could inappropriately change payments to individuals if the review procedures are
          not followed or enforced. In addition, excessive access provides employees with
          unnecessary opportunities to circumvent system security and sets the stage for
          situations where errors or wrongful acts could go undetected.

Recommendations
        We recommend the Director of the Office of Financial Services:

          2-1 	   Conduct and document an analysis of functional user system access
                  requirements to create appropriate roles that restrict employee access to
                  necessary functionality.

          2-2 	   Assign all current system users to the appropriate roles.

          We recommend the Directors of the Office of Human Resources and the Office of
          Financial Services:

          2-3 	   Develop and publish a joint policy memorandum to all staff reinforcing
                  established policies and procedures outlined in the PPL Security Plan and
                  Online Access Guide.



                                            5

         2-4   Develop and implement a strategy to increase managers’ awareness of
               security responsibilities assigned to their employees.

         2-5   Provide in-depth training for the assigned PPL Access Coordinators and
               Security Administrators. Establish milestone dates when all PPL Access
               Coordinators and Security Administrators will complete the training.

         2-6   Establish milestone dates when offices will implement the required
               quarterly reviews of user system access.

         2-7   Conduct and document an evaluation of system access needs for system
               development contractors with access to the production environment.
               Establish, document, and implement controls to limit and monitor
               contractor access.

Agency Comments and OIG Evaluation

               The Directors of both OFS and OHR concurred with our seven
               recommendations to improve PPL user account management. The Agency
               has completed some analysis of functional user roles and completion dates
               for corrective actions to address our remaining recommendations. The
               corrective actions planned are appropriate and will adequately address the
               recommendations.




                                        6

                               Chapter 3
      Improvements Needed in Contractor Background
                   Screening Process
         EPA did not ensure that contractors obtained an appropriate background check
         before granting them access to PPL. Our review indicated that offices granted
         contractors access to the system without verifying whether contractor personnel
         had the required National Agency Check with Inquiries and Credit (NACIC).
         These weaknesses occurred because the Agency did not follow the procedures
         outlined in the online access policy. These weaknesses in basic controls have the
         potential to undermine an essential part of the system’s security.

EPA Did Not Follow Contractor Background Screening Procedures
         EPA did not ensure contractors obtained the required background check before
         granting them access to PPL. We reviewed the background check status for all
         OCFO and OARM contractors with system access. We found that for 10 of 22
         contractors (45 percent), the program offices authorized access to the system
         without verifying the contractor had completed the Agency-required NACIC
         background check.

         These weaknesses occurred because neither program office followed the
         procedures outlined in the online access policy. Specifically, we found that the
         Task Order Project Officers (TOPOs), responsible for authorizing and requesting
         system access, needed additional training on EPA-prescribed contractor
         background screening procedures. In addition, OARM did not establish
         procedures to follow up on requested background screening checks for contractors
         given temporary system access.

         Because intentional and unintentional employee actions are the primary cause of
         disruptions of information system integrity and operation, security controls should
         provide reasonable assurance that systems are safeguarded. Although not
         infallible, background checks serve as a basic control to determine whether
         contractors are suitable to have access to sensitive Agency information. These
         checks are an integral part of an overall system of controls to protect the
         confidentiality, integrity, and availability of information systems.

         Furthermore, while authorizing temporary system access is sometimes necessary,
         offices should use it sparingly and monitor it to maintain internal controls. By not
         implementing processes to follow up and promptly remove the access when no
         longer required, management places EPA in greater risk that unscrupulous
         individuals could undermine the integrity of the system.




                                          7

Recommendations
         We recommend that the Directors of the Office of the Human Resources and the
         Office of Financial Services:

         3-1 	   Develop, implement, and document a formal training program for the
                 personnel responsible for requesting and approving contractor personnel
                 access to PPL. Ensure that all TOPOs receive the training.

         3-2 	   Develop, implement, and document specific procedures for processing
                 contractor personnel background screening requests.

         3-3 	   Develop and implement a monitoring process for contractors granted
                 temporary access to PPL.

         3-4	    Establish a milestone date to complete NACIC security
                 screenings for all contractor personnel with system access.

Agency Comments and OIG Evaluation
                 The Directors of both OFS and OHR concurred with our four
                 recommendations to improve the contractor background screening
                 process. The Agency has completed all NACIC security screenings for
                 the contractor personnel we identified in the report as not having a verified
                 background check. The Agency established target dates for addressing
                 our remaining recommendations. The corrective actions planned are
                 appropriate and will adequately address the recommendations.




                                           8

                               Chapter 4
    Improvements Needed for Default User IDs and
           Security Administrator Duties
          EPA implemented PPL without adequately developing security controls for
          default user IDs and adequately separating incompatible duties performed by the
          Security Administrator. By not controlling special access accounts and
          adequately separating duties, a person could bypass implemented controls without
          detection and undermine the integrity of the data.

Default User IDs Not Secured

          EPA has not secured default user IDs, which allow users to by-pass security
          controls. Default user IDs are of two types: “Super User IDs” and “User IDs.”
          Super User IDs have unrestricted access to the system. User IDs provide
          unlimited access for specific application modules, such as HR or Payroll. Our
          review disclosed that 7 of 9 (78 percent) IDs listed in a Security Administrator
          account were default user IDs. Although the Security Administrator changed the
          account passwords and locked some accounts, we found three of the default user
          IDs were still active.

          Like many enterprise resource planning applications, PPL comes with multiple
          default user IDs with passwords set to commonly known factory settings. The
          manufacturer delivered the PPL software to EPA with default user IDs and
          passwords. According to industry security best practices, the Agency should have
          appropriately secured the default user IDs and passwords, by: (1) locking, (2)
          removing, or (3) changing them as part of the system implementation process.
          Immediate and proper identification and maintenance of these IDs, especially
          Super User IDs, are vital to the security of the application. With knowledge of
          the system’s configuration and access to EPA’s network, a person could use a
          default user ID to exploit PPL.

          Although EPA developed a system security plan and provided broad overarching
          security guidance, we found that key security documents were either not prepared
          or unavailable for review. Specifically, EPA had not prepared an analysis of the
          design and assignment of permissions and roles within the system. In this regard,
          EPA had not documented which default IDs were necessary for the system to
          process HR and payroll transactions or the remediation actions necessary to
          secure those accounts not needed.




                                          9

Security Administrator Performs Incompatible Duties

          Our analysis determined that one Security Administrator had system access and
          responsibilities for three incompatible, critical security functions. These functions
          should be separate to ensure that no one person has complete control over the
          implementation of program changes without detection. A Security Administrator
          responsible for implementing user roles could inadvertently or deliberately obtain
          access to PPL functions that are not in accordance with management policies.
          Specifically, this particular Security Administrator was responsible for:

             •   Creation and maintenance of roles and permission lists;

             •   Migration of roles and permission lists into the production stage; and

             •   Creation and maintenance of user profiles.

          The performance of incompatible duties is a common security concern, but is
          further heightened when an employee with control over the system performs the
          duties. The Security Administrators are one of the pillars of an effectively
          implemented system of controls. Because of this, EPA places itself at greater risk
          when a Security Administrator performs incompatible duties that are vital to the
          underlying security of the application. In addition, the potential exists that system
          changes could occur and go undetected which could undermine the controls
          management must rely upon for the integrity of the information processed by the
          system.

          As previously stated, EPA had not adequately described the design and
          assignment of permission lists and roles within the system. Furthermore, EPA
          had not: (1) analyzed Security Administrator responsibilities to ensure one
          employee was not performing incompatible duties, (2) assigned duties between
          the two Security Administrators, and (3) provided sufficient training to security
          personnel to perform these duties.

Recommendations
          We recommend that the Director of the Office of Financial Services:

          4-1	   Conduct and document an analysis of default user IDs to determine the
                 necessity for each default account and deactivate default user IDs as
                 appropriate.

          4-2	   Conduct and document an analysis of Security Administrator
                 responsibilities and assign duties in a manner that provides adequate
                 separation of duties.



                                           10

Agency Comments and OIG Evaluation
         The Director of OFS concurred with our two recommendations to review the
         status of default user IDs and to analyze Security Administrator responsibilities
         for adequate separation of duties. The Agency has completed an analysis of
         default user IDs and has planned a completion date for conducting and
         documenting a thorough analysis of Security Administrator responsibilities. The
         corrective action planned is appropriate and will adequately address the remaining
         recommendation.




                                         11

                                                                                      Appendix A

                                   Agency Criteria
Office of Financial Management, Policy Announcement No. 04-01, Policies and Procedures
for Online Access to EPA’s Integrated Human Resources, Benefits, Payroll, Time and
Labor Management System-PeoplePlus, provides procedures for online access to the system.
In addition, the Policy provides procedures for requesting and changing user IDs, passwords, and
access; security training for PPL access coordinators and users; and responsibilities of
individuals with system access. Specifically, Security Administrators are responsible for
verifying that requested access is limited to the performance of a user’s assigned responsibilities,
monitoring adherence to the policies and procedures contained in this Policy, and conducting an
annual review of system online security functions. The Agency should monitor any changes to
authorized users’ employment status or changes in the duties affecting their access, conduct
quarterly reviews of user access needs to ensure only those authorized functions that are required
to perform their current duties are retained in their security profiles, and retaining copies of the
user access request forms. The Policy also identifies maintaining and ensuring adequate
segregation of duties as a vital procedure for controlling access to the system. Additionally,
program offices are required to ensure contractor personnel have, at a minimum, a NACIC
background screening before granting access to PPL.

Office of Chief Financial Officer/Office of Administration Resources Management,
PeoplePlus (PPL) Security Plan, details the managerial, operational, and technical controls for
securing the PPL system. This document describes personnel security requirements as well as
the requirements for segregation of duties and minimal privileges. The Security Administrators
are responsible for reviewing the requests to provide reasonable assurance that unnecessary
privileges are not granted. In addition, the Security Administrators are responsible for reviewing
access lists quarterly to verify that users continue to need access. User access must be restricted
to the minimum necessary to perform the job. At a minimum, any contractor support must pass
the NACIC background check before gaining access to PPL.

EPA Order No. 2195.1 A4, Network Security Policy, establishes basic controls to ensure a
secure network infrastructure. It specifies that: (1) access authorizations and controls must
follow the principles of “need-to-know,” “need-to-perform,” and “least privilege” in relation to
functional requirements; (2) access authorizations must be documented; and (3) authorizations
and associated authentication methods must be periodically reviewed, tested, and verified. In
addition, the Policy specifies that network procedures, standards, and operating practices for
implementation of this policy are consistent with National Institute for Standards and
Technology requirements, and documented industry standards and best practices.

EPA’s Information Security Manual sets forth requirements and guidance for securing Agency
information resources in accordance with EPA and Federal security policies and mandates.
Specifically, the policy lists requirements for personnel screening, logical access controls, and
establishing proper segregation of duties.




                                                12

                                                                                     Appendix B

                   Agency Response to Draft Report


                                              July 20, 2005


MEMORANDUM

SUBJECT:       P
               	 eoplePlus Security Controls Audit Report

FROM: 	        Milton Brown, Director /s/
               Office of Financial Services (2734R)

               Rafael DeLeon, Director /s/    

               Office of Human Resources (3610A) 


TO: 	          Rudolph M. Brevard, Acting Director
               Business Systems Audits
               Office of Inspector General (2421T)

        We thank you for the opportunity to review and provide comments on the PeoplePlus
(PPL) Security Controls Draft Audit Report (Assignment No. 2005-00342). The Office of
Financial Services (OFS) and the Office of Human Resources (OHR) support the specific audit
objectives: “to determine whether: (1) the Environmental Protection Agency (EPA) adequately
configured People Plus application security and technical infrastructure to protect the
confidentiality, integrity, and availability of system data; and (2) implemented controls were
working as intended.” Based on already planned actions and the audit findings, we will continue
to improve security policies, training, and general oversight of PPL security. In addition, OFS
will work with users and payroll staff to address concerns and implement improved compliance
of the system.

       The report identifies issues with controls that it claims are commonly bypassed and
lacking in management oversight. The report implies that problems are commonplace and places
the Agency at substantial risk. We believe this is subject to interpretation and is overstated.
Management in the Office of the Chief Financial Officer (OCFO) and the Office of
Administration and Resources Management (OARM) take the integrity and privacy of
employees’ personnel and payroll data very seriously, and our staffs understand the importance
of maintaining data integrity.

        The report also states that actions that might be allowed by users with excessive
privileges could create system compromises “without detection”. As was provided in earlier
draft responses, all payroll actions are audited, and if a supervisor or security administrator




                                                13

caused inappropriate or adverse actions to occur, full audit records are available to the Agency
payroll audit team. In no case does any action go undetected.

        In addition, the report implies that security role development and role/default account
management were haphazard and lacking in attention to detail. The report does not reflect the
amount of attention placed on security controls. While these areas need to be reviewed and
updated now that the system is in full production, OFS spent considerable time and attention
establishing and working on these areas prior to implementation.

        Attached is our response to your recommendations presented to us in the draft audit
report. We again appreciate the opportunity to work through the issues and we appreciate your
consideration of our comments on the audit.

       If you have any questions or require additional information or clarification concerning
our response, please contact Sheila Bullock, Office of Financial Services on (202) 564-5202 and
Brenda Daly, Office of Human Resources on (202) 564-6290.

Attachment

cc: 	Raffael Stein       2734R
     Janice Kern         2734R
     Jayna Alexander     2734R
     Carline Ransom      2734R
     Sheila Bullock      2734R
     Corey Costango      2421T
     Warren Brooks       2421T
     William Coker       2421T
     Mike Hamlin         3631M
     Jeuli Bartenstein   3631M
     Brenda Daly         3631M
     Dennis Nolan        2733R
     Richard Bennett     2733R
     Joseph L. Dillon    2731A
     Krista Mainess      2710A
     Larry Burnham       2710A




                                                14

                                                                   Attachment

                            Responses to Recommendations


No. Recommendation       Concur Responsible Planned              Comments
                         / Non-   Office         Completion
                         Concur                  Date
We recommend the Director of the Office of Financial Services:
2-1 Conduct and                                                  We have performed an
     document an                                                 analysis of functional user
     analysis of         Concur OFS                              system access requirements
     functional user                                             to create appropriate roles
     system access                               06/30/2005      associated
     requirements to                                             with job functionality.
     create appropriate                          07/31/2005
     roles that restrict                                         Payroll roles were
     employee access to                          08/31/2005      completed as of 6/30/05.
     necessary
     functionality.                              08/31/2005      The Help Desk roles will
                                                                 be completed by 7/31/05
                                                                 and

                                                                 Time & Labor roles will be
                                                                 completed by 8/31/05.

                                                             All roles will be
                                                             documented by 08/31/05.
2-2 Assign all current                                       All current system users
     system users to the Concur OFS              08/31/2005 will be assigned to
     appropriate roles.                                      appropriate roles. In
                                                             addition, those anomalies
                                                             identified in the IG
                                                             Report has been corrected.
                                                             We will continue to
                                                             monitor security access to
                                                             ensure that these
                                                             inconsistencies do not
                                                             occur again.
We recommend the Directors of the Office of the Human Resources and the Office of
Financial Services:
2-3 Develop and                                              OFS and OHR will work
     publish a joint                                         together to develop and
     policy              Concur OFS/OHR          08/31/2005 publish a joint policy
     memorandum to all                                       memorandum to re
     staff reinforcing                                       emphasize to staff the


                                           15

      established policies                                    importance of the guidance
      and procedures                                          provided in the PPL
      outlined in the PPL                                     Security Plan and Policy
      Security Plan and                                       Announcement 04-01
      Online Access                                           (Policies and Procedures
      Guide.                                                  for On-Line Access to
                                                              EPA’s Integrated Human
                                                              Resources, Benefits,
                                                              Payroll, Time and Labor
                                                              Management System-
                                                              PeoplePlus).
2-4   Develop and                                             OFS and OHR are working
      implement a                                             together to develop and
      strategy to increase   Concur   OFS/OHR    08/31/2005   implement a strategy to
      managers’                                               increase managers’
      awareness of                                            awareness of the PPL
      security                                                security responsibilities
      responsibilities                                        assigned to their
      assigned to their                                       employees.
      employees.                                              Implementation of this
                                                              strategy is scheduled to
                                                              begin on 07/29/05. We
                                                              will include this in the PPL
                                                              manager training planned
                                                              for August.
2-5   Provide in-depth                                        We are in the process of
      training for the                                        providing in-depth training
      assigned PPL           Concur   OFS/OHR    08/31/2005   for the PPL Access
      Access                                                  Coordinators. The Security
      Coordinators and                                        Administrators will also be
      Security                                                provided training as
      Administrators.                                         appropriate.
      Establish milestone
      dates when all PPL                         Completed    Please note the completed
      Access                                                  training for the OFS and
      Coordinators and                           Completed    OHR Security
      Security                                                Administrators.
      Administrators will                        Completed
      complete the                                            OFS Security
      training.                                  Completed    Administrator
                                                                - PeopleSoft Security
                                                 Completed    Training version 8.12
                                                                  September 10-12, 2002
                                                 Completed      - PeopleSoft Security
                                                              Training July 12-14, 2005
                                                              OHR Security



                                           16

                                                             Administrator
                                                               - PeopleSoft Security
                                                             Training version 8.12
                                                                 April 27, 2002
                                                                - PeopleSoft Security
                                                             Training version 8.4
                                                                  March 2, 2004
                                                               - Attended IT Security
                                                             and Operations conference
                                                                  May 17-21, 2004
                                                               - Attended IT Security
                                                             and Operations conference
                                                             (ISO)
                                                                  April 11-14, 2005

2-6   Establish milestone                                    The required quarterly
      dates when offices    Concur   OFS/OHR    08/31/2005   reviews will be conducted
      will implement the                                     for contractors and
      required quarterly                                     functional users. In
      reviews of user                                        addition, quarterly
      system access.                                         reminders of the policy and
                                                             procedures for maintaining
                                                             PPL access will be
                                                             provided to the PPL Access
                                                             Coordinators.


                                                             The milestone dates for
                                                             quarterly reviews and
                                                             reminders are:
                                                             September 20, 2005
                                                             June 30, 2006
                                                             December 31, 2005
                                                             September 20, 2006
                                                             March 31, 2006
                                                             December 31, 2006

2-7   Conduct and                               07/31/2005   OFS and OHR will conduct
      document an                                            and document an
      evaluation of         Concur   OFS/OHR                 evaluation of system access
      system access                             07/31/2005   needs for system
      needs for system                                       contractors.
      development
      contractors with                                       We will also establish,
      access to the                                          document, and implement
      production                                             controls to ensure



                                          17

      environment.                                             contractor access is limited
      Establish,                                               and based on current
      document, and                                            responsibilities.
      implement controls
      to ensure contractor                                     Please note that controls
      access is limited                                        exist today to monitor and
      and monitored.                                           track contractor access
                                                               through the audit log.
                                                               (Currently this function is
                                                               performed biweekly.) This
                                                               will formalize our
                                                               procedures.
3-1   Develop,                                                 OFS and OHR will
      implement, and                                           develop, implement, and
      document a formal                                        document a formal training
      training program       Concur   OFS/OHR     08/31/2005   plan for the personnel
      for the personnel                                        responsible for requesting
      responsible for                                          and approving contractor
      requesting and                                           personnel access to PPL.
      approving                                                In addition, we will ensure
      contractor                                               that the TOPOs receive
      personnel access to                                      training.
      PPL. Ensure that
      all Task Order
      Project Officers
      (TOPO) receive the
      training.
3-2   Develop,               Concur   OFS/OHR     On-Going     OFS and OHR will
      implement, and                                           document and continue to
      document specific                                        implement specific Agency
      procedures for                                           procedures such as the SF
      processing                                               85 process, and the OF-306
      contractor                                               process, as well as the
      personnel                                                funding procedures
      background                                               necessary to complete these
      screening requests.                                      tasks.
3-3   Develop and                                              It is OHR’s responsibility
      implement a                                              to implement the
      monitoring process     Concur   OHR         10/2005      Homeland Security
      for contractors                                          Presidential Directive
      granted temporary                                        (HSPD-12), Policy for a
      access to PPL.                                           Common Identification
                                                               Standard for Federal
                                                               Employees and
                                                               Contractors. The Policy
                                                               requires that EPA’s non


                                            18

                                                            Federal workers undergo
                                                            Federally-sponsored
                                                            background checks before
                                                            being issued smart cards
                                                            that will permit access to
                                                            our facilities and
                                                            information systems.
                                                            EPA’s implementation plan
                                                            has been submitted to the
                                                            Office of Management and
                                                            Budget (OMB), with
                                                            implementation expected in
                                                            October. We believe that
                                                            our efforts will result in a
                                                            comprehensive Agency
                                                            program for non-Federal
                                                            worker background checks
                                                            consistent with HSPD-12.
                                                            Also, we will implement a
                                                            monitoring process which
                                                            will perform periodic
                                                            checks on the status of the
                                                            NACICs for all contractors
                                                            that have been granted
                                                            temporary access to
                                                            PeoplePlus.

3-4   Establish a                                           As of 06/30/2005, OFS and
      milestone date to    Concur   OHR         Completed   OHR completed all NACIC
      complete                                              security screenings for all
      documented                                            contractor personnel with
      NACIC security                                        system access (See Chapter
      screenings for all                                    3 of Audit Report). We
      contractor                                            feel that the need for key
      personnel with                                        milestones are no longer
      system access.                                        relevant due to the fact that
                                                            we are following the EPA
                                                            Information Security
                                                            Manual 2195A1, 1999
                                                            Edition, page 68, which
                                                            states:

                                                            “The NACIC screening
                                                            must occur prior to
                                                            providing contractor
                                                            personnel with access to



                                          19

                                                                 EPA systems. Contractor
                                                                 personnel must submit
                                                                 required background
                                                                 investigation
                                                                 documentation within ten
                                                                 (10) days after initiation of
                                                                 contract. To avoid
                                                                 unnecessary delays, new
                                                                 contractor personnel may
                                                                 begin work while the OPM
                                                                 screening is in progress,
                                                                 provided contractor
                                                                 personnel have already
                                                                 completed pre-screening
                                                                 requirements by their
                                                                 employer.”
                                                                 We will develop a process
                                                                 to monitor the status of the
                                                                 NACIC.

We recommend that the Director of the Office of Financial Services:
4-1 Conduct and                                                 On 06/23/05, we conducted
     document an          Concur OFS              Completed     and documented an
     analysis of default                                        analysis of default user IDs
     user IDs to                                                to determine the necessity
     determine the                                              for each default account
     necessity for each                                         (See Chapter 4 of Audit
     default account and                                        Report). Based on the
     deactivate default                                         analysis it was determined
     user IDs as                                                that three IDs were not
     appropriate.                                               locked and of the three, we
                                                                locked two and the
                                                                passwords were changed.
                                                                The third user ID could not
                                                                be locked because it is used
                                                                to create User Accounts.
                                                                However, the access was
                                                                restricted to the Security
                                                                Administrator in a different
                                                                name. In addition, the
                                                                Default User IDs
                                                                passwords will be changed
                                                                quarterly – every 90 days.
4-2 Conduct and                                                 OFS will conduct and
     document an          Concur OFS/OHR          07/31/2005 document a thorough
     analysis of Security                                       analysis of Security


                                             20

Administrator                 Administrator
responsibilities and          responsibilities and assign
assign duties in a            duties in a manner that
manner that                   provides adequate
provides adequate             separation of duties.
separation of duties.
                              Please note that the
                              Security Administrator is a
                              special and complex case.
                              Any user with super user
                              privilege presents
                              separation of duties and
                              trust issues in any
                              production system
                              environment with sensitive
                              or financial data.




                        21

                                                                            Appendix C



                                    Distribution
Office of the Administrator
Director, Office of Financial Services
Director, Office of Human Resources
Audit Coordinator, Office of the Chief Financial Officer
Audit Coordinator, Office of Administration and Resources Management
Director, Technical Information Security Staff
Agency Followup Official (the CFO)
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Inspector General




                                             22

